DEPARTMENT OF HOMELAND SECURITY
                                     Fnepare
    Office of Inspector General



  Coordination Between FBI and ICE on
  Investigations of Terrorist Financing




OIG-07-55                     July 2007
Table of Contents


Executive Summary ............................................................................................................................1

     Background ...................................................................................................................................2

             Introduction..........................................................................................................................2

             History of FBI and ICE Coordination in Terrorism-Related Investigations........................3

             Development and Implementation of the MOA and the Collaborative Procedures ............5

     Results of Review .........................................................................................................................8

             FBI Review of ICE Financial Leads and Cases Yields Few Transfers ...............................8

             Transferred Cases Benefit When ICE Agents Are Detailed to JTTF ................................11

             ICE Agents’ Dissatisfaction with MOA May Lead to Failure to Pursue Leads with a
             Terrorism Nexus ................................................................................................................17

             Changes to the MOA Are Unnecessary .............................................................................20

             Ineffective MOA Instruction to Field Agents....................................................................21

     Management Comments and OIG Analysis ...............................................................................25

Figures

     Table 1:        Summary of Other ICE Law Enforcement Agreements .............................................8
     Table 2:        Summary of Ten Cases Transferred .........................................................................16

Appendices

     Appendix A:            Senator Grassley’s Letter ..................................................................................31
     Appendix B:            Letter from Former Houston ICE SAC Webber to Senator Grassley ...............35
     Appendix C:            The Memorandum of Agreement between DOJ and DHS................................38
     Appendix D:            The Collaborative Procedures ...........................................................................41
     Appendix E:            Purpose, Scope, and Methodology ....................................................................43
     Appendix F:            ICE Response to Draft Report...........................................................................46
     Appendix G:            FBI Response to Draft Report ...........................................................................49
     Appendix H:            Major Contributors to this Report .....................................................................52
     Appendix I:            Report Distribution............................................................................................53




                               Coordination Between FBI and ICE on Investigations of Terrorist Financing
Abbreviations

   CBP      Customs and Border Protection
   DHS      Department of Homeland Security
   DOJ      Department of Justice
   EC       Electronic Communication
   FBI      Federal Bureau of Investigation
   ICE      Immigration and Customs Enforcement
   JTTF     Joint Terrorism Task Force
   JVU      Joint Vetting Unit
   MOA      Memorandum of Agreement
   NJTTF    National Joint Terrorism Task Force
   OIG      Office of Inspector General
   SAC      Special Agent in Charge
   TFOS     Terrorist Financing Operations Section
   USAO     United States Attorney’s Office
   U.S.C.   United States Code
   USCS     United States Customs Service




                  Coordination Between FBI and ICE on Investigations of Terrorist Financing
Executive Summary
              We initiated this review jointly with the Department of Justice (DOJ) Office
              of Inspector General (OIG) at the request of Senator Charles E. Grassley,
              former Chairman of the Senate Finance Committee, to examine the
              effectiveness of a memorandum of agreement (MOA) between the
              Department of Homeland Security (DHS) and DOJ addressing the
              coordination of terrorist financing investigations. The OIGs reviewed the
              progress of the cases that were transferred under the MOA; evaluated the
              MOA’s effect on Immigration and Customs Enforcement’s (ICE) ability to
              use its expertise and experience in pursuit of terrorist financing; and
              determined whether the MOA was implemented effectively. We also
              considered whether the MOA should be revised and identified any other ICE
              agreements on law enforcement issues.

              In May 2003, DHS and DOJ signed an MOA to coordinate and deconflict
              terrorist financing cases between ICE and the Federal Bureau of
              Investigation (FBI). The MOA affirms the FBI as the lead on terrorist
              financing cases and produced a system for identifying and transferring ICE
              cases that have a nexus to terrorism to the FBI-led Joint Terrorism Task
              Forces (JTTFs). The MOA allows ICE agents to be detailed to the JTTFs to
              continue pursuing transferred cases. Some in ICE have expressed concerns
              about ICE’s ability to lend its financial crime expertise and experience to
              terrorist financing investigations. Further, Senator Grassley and some ICE
              agents stated a concern that a “turf war” mentality may be impacting such
              investigations.

              Our review determined that these concerns were unjustified. Of the more
              than 7,274 ICE cases and leads, only 11 were transferred from ICE to a
              JTTF under the MOA. We examined all 11 cases, interviewing the ICE and
              FBI agents assigned to them. Most of the cases have progressed well,
              suffering few, if any, problems in coordination or cooperation. The JTTFs
              fully employed the expertise and experience of the ICE agents who were
              detailed there to continue investigating the transferred cases. Because the
              transferred cases have been suitably investigated and ICE agents’ expertise
              and experience have been fully employed to the advantage of the
              investigations, we do not recommend modifications to the MOA.
              Nonetheless, we identified shortcomings with the implementation and
              management of the MOA by ICE and the FBI that has led to some problems
              in cooperation and coordination. We are making four recommendations,
              two each to ICE and the FBI, to overcome those issues. All four
              recommendations are resolved, however each remains open pending our
              receipt of additional information regarding ICE and the FBI’s proposed
              actions.

            Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                             Page 1
Background

        Introduction
                          Senator Charles E. Grassley, former Chairman of the Senate Finance
                          Committee, requested that the DHS and DOJ OIGs conduct a joint review of
                          allegations made by Joseph Webber, the former ICE Special Agent in
                          Charge (SAC) in Houston, Texas, that the FBI intentionally delayed
                          approval of an ICE application for a Title III electronic surveillance warrant
                          in a terrorist financing investigation. 1 The Senator’s request letter is in
                          Appendix A, and a copy of Mr. Webber’s letter to Senator Grassley stating
                          Mr. Webber’s concerns is included in Appendix B.

                          In addition, Senator Grassley asked that we jointly review whether the May
                          2003 MOA between DHS and DOJ concerning terrorist financing
                          investigations has been implemented effectively and assess whether it has
                          affected ICE’s ability to use its expertise and experience in pursuing terrorist
                          financing investigations. Senator Grassley also asked us to determine how
                          the cases that were transferred under the MOA have progressed and
                          determine whether the MOA should be revised and to determine whether
                          ICE has any other agreements on law enforcement issues.

                          The review addressing Senator Grassley’s concerns was conducted jointly
                          by DHS and DOJ OIGs. To expedite delivery of the findings, the DHS and
                          DOJ OIGs divided the review into two stages. The first stage was an
                          examination of the facts underlying Mr. Webber’s allegation that the FBI
                          intentionally delayed a specific ICE investigation. Because the principal
                          allegation challenged FBI conduct, DOJ OIG led the production of the first
                          stage report with DHS OIG concurrence. The results of that portion of our
                          joint review were addressed in a report titled, A Review of FBI’s Actions in a
                          Terrorist Financing Investigation Initiated by the U.S. Bureau of
                          Immigration and Customs Enforcement, April 26, 2006, which was
                          published by the DOJ OIG with DHS OIG concurrence. That report was
                          completed and provided to Senator Grassley in April 2006. A redacted
                          version of this report, deleting classified or law enforcement sensitive
                          information, was also provided to Senator Grassley on August 31, 2006.

                          The second stage of the review was a study of the effectiveness and impact
                          of the MOA and the progress of other cases transferred under it. As with the
                          first stage of the review, DHS OIG and DOJ OIG participated in the fact
                          finding and analysis phases of the review. Because the principal focus

1
  The Omnibus Crime Control and Safe Streets Act of 1968, Pub. L. 90-351, Title III, provided rules for obtaining wire
tap orders in the United States. The law was codified in 18 U.S.C. §§ 2510-2520.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                         Page 2
                          involved ICE effectiveness and program issues, DHS OIG led the
                          production of this second stage report, with the concurrence of DOJ OIG.


        History of FBI and ICE Coordination in Terrorism-Related
        Investigations
                          The FBI and JTTFs

                          The FBI created the first JTTF in New York City in 1980 to coordinate
                          federal, state, and local law enforcement efforts for the purpose of
                          preventing, deterring, defeating, and responding to any terrorist attack
                          within the United States. Since then, the number of JTTFs has expanded to
                          more than 100 nationwide, including one at each of the FBI’s 56 field office
                          locations. The majority of those JTTFs were established after the
                          September 11 attacks. Although the JTTFs are maintained and managed by
                          the FBI, other agencies and departments have detailed their agents to the
                          JTTFs to assist in combating terrorism. Some of the other agencies involved
                          in the JTTFs include the Internal Revenue Service, the Drug Enforcement
                          Administration, and state and local law enforcement personnel. Currently
                          there are almost 4,000 JTTF agents nationwide, including agents from the
                          FBI and almost 700 agents from other federal government agencies,
                          including ICE. 2

                          The efforts of the JTTFs are coordinated through the National Joint
                          Terrorism Task Force (NJTTF) at FBI headquarters. The purpose of the
                          NJTTF is to provide support, coordination, and information to the various
                          JTTFs, and between the JTTFs and FBI headquarters.

                          Initially, the Attorney General relied upon the statutory authority granted by
                          28 U.S.C. § 533 to assign the FBI “lead agency responsibilities in
                          investigating all crimes for which it has primary or concurrent jurisdiction
                          and which involve terrorist activities or acts in preparation of terrorist
                          activities….” Several Presidential Decision Directives and the President’s
                          National Strategy for Homeland Security of 2002 have further defined this
                          leadership role. The FBI relies on the JTTFs to conduct counter-terrorism
                          investigations throughout the United States.

                          FBI’s Post-September 11 Counter-Terrorist Financing Efforts

                          In the aftermath of the September 11 attacks on the World Trade Center
                          complex and the Pentagon, the FBI created the Financial Review Group to

2
 See “Protecting America Against Terrorist Attack: A Closer Look at the FBI’s Joint Terrorism Task Forces,” FBI
Archives, December 1, 2004, available at http://www.fbi.gov/page2/dec04/jttf120114.htm.

                       Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 3
                          investigate the financing of the 19 hijackers and to ascertain fundraising
                          schemes associated with the attacks. The mission of the Financial Review
                          Group evolved to encompass investigation of all terrorist-related financial
                          and fundraising activities. The Financial Review Group developed leads
                          and distributed them to the JTTFs, as well as contributed to other
                          organizations, such as the National Security Council’s Coordinating Policy
                          Committee, by providing information on counter-terrorist funding activities.
                          While the Financial Review Group was created as a response to the
                          September 11 attacks, the FBI has had the jurisdiction and authority to
                          investigate terrorist financing since at least 1994. 3

                          In April 2002, the Financial Review Group was reorganized into the
                          Terrorist Financing Operations Section (TFOS), with a similar mission to
                          identify, disrupt, and dismantle terrorist-related fundraising activities,
                          including using the tools enhanced by the USA PATRIOT Act. 4 TFOS is
                          responsible for coordinating, supporting, and enhancing the capabilities of
                          terrorist financing investigations in the field and for managing terrorist
                          financing cases in the JTTFs. The FBI has historically conducted financial
                          investigations through its white collar crimes division. TFOS focuses that
                          financial investigations expertise on terrorist financing cases.

                          ICE’s Post-September 11 Counter-Terrorist Financing Efforts

                          The U.S. Customs Service (USCS) conducted financial investigations
                          throughout its 200 year history, investigating financial crimes such as
                          money laundering, bulk cash smuggling, intellectual property rights
                          violations, and counterfeit goods trade and traffic. When DHS was
                          established, ICE continued the USCS mission to investigate financial
                          crimes, including those with a nexus to terrorism.

                          In October 2001, in response to the September 11 attacks, the Department of
                          the Treasury also began a new program to identify and disrupt terrorist
                          financing programs operating within the United States or abroad. This task
                          force effort, known as Operation Green Quest, was led by the USCS, but it
                          also included a number of other agencies: the FBI; the Internal Revenue
                          Service; the U.S. Secret Service; the Financial Crimes Enforcement
                          Network; and the Bureau of Alcohol, Tobacco, Firearms and Explosives,
                          among others. Operation Green Quest served a coordinating role,
                          disseminating leads to the field and ensuring that different field
                          investigations were not duplicated. By many accounts, Operation Green
                          Quest was very successful. In its first year and a half, the program opened
3
  Congressional Research Service Report, Terrorist Financing: U.S. Agency Efforts and Inter-Agency Coordination,
August 3, 2005, p. 36.
4
  Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
Act of 2001, Pub. L. 107-56, October 26, 2001, 115 Stat. 272.

                       Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 4
                        2,000 cases, resulting in 79 arrests, 70 indictments, and seizures of $33
                        million.

                        After the Homeland Security Act of 2002 5 created DHS, agents from USCS
                        were consolidated with agents from the Immigration and Naturalization
                        Service into a new organization, ICE. Operation Green Quest also moved
                        from USCS to ICE. Operation Green Quest continued until it was
                        dismantled pursuant to the MOA between DHS and DOJ in May 2003.

                        Conflicts Between ICE and FBI Counter-Terrorist Financing Efforts

                        Following September 11, 2001, coordination issues quickly arose between
                        the FBI’s terrorist financing investigations and Operation Green Quest
                        investigations. Both organizations and the DOJ Criminal Division’s
                        Counter Terrorism Section, which guides prosecutions of terrorist financing
                        cases, complained about a lack of information sharing and a general
                        inability to coordinate investigative activities. The lack of coordination and
                        communication led to overlaps in investigations and a potential for
                        compromised investigations and risk to agents’ safety. For example, a DOJ
                        employee told the OIGs that during one particular investigation, an ICE
                        manager spoke about the details of an ongoing investigation on television,
                        disclosing details the FBI considered to be classified.


        Development and Implementation of the MOA and the Collaborative
        Procedures
                        Development of the MOA

                        Because of the problems in coordinating and deconflicting terrorist
                        financing cases, DHS and DOJ negotiated the MOA in May 2003, ending
                        Operation Green Quest and consolidating investigation of terrorist financing
                        cases in the JTTFs. 6 The stated purpose of the MOA was to enable the U.S.
                        government to wage a seamless, coordinated campaign against sources of
                        terrorist financing. The MOA recognized the FBI as the lead law
                        enforcement agency in combating terrorism and terrorist financing.
                        According to the MOA, ICE would continue to pursue terrorist financing
                        investigations and operations through its participation in JTTFs. However,
                        the MOA included a provision by which ICE could investigate terrorist
                        financing outside the JTTFs provided that the FBI’s TFOS gave express
                        approval. The MOA noted that both ICE and the FBI would continue

5
  P.L. 107-296 (November 25, 2002). The ICE organization was announced on January 30, 2003, and USCS and
Immigration and Naturalization Service agents were transferred to ICE in March 2003.
6
  Former DHS Secretary Tom Ridge and former Attorney General John Ashcroft signed the MOA on May 13, 2003.
A copy of the MOA is included at Appendix C.

                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                       Page 5
  independent investigations of money laundering and other financial crimes
  that were unrelated to terrorism.

  The MOA requires ICE to submit all “appropriate” money laundering or
  financial crime leads to the FBI to determine whether they are “related to
  terrorism or terrorist financing and to ensure effective deconfliction.” The
  MOA also directs that the TFOS Deputy Section Chief be a DHS employee,
  and it encourages ICE and JTTF members to share information related to
  terrorist financing cases to the fullest extent allowed by law and applicable
  agreements. The TFOS Section Chief, in consultation with the TFOS
  Deputy Section Chief, makes the final determination as to whether a case or
  lead is linked to terrorism or terrorist financing and whether it should be
  moved to the JTTF. According to the MOA, TFOS shall take the following
  factors into account when making a determination of whether a case is
  linked to terrorist financing: (1) strength of the terrorism or terrorist
  financing nexus; (2) impact of the investigation on non-terrorism matters;
  and, (3) stage and development of the respective investigations. Another
  provision of the MOA requires that DHS and DOJ develop specific,
  collaborative procedures for determining whether an ICE case or lead
  should be provided to TFOS and to enable TFOS to determine whether the
  case or lead is related to terrorism or terrorist financing.

  Implementation of the MOA

  ICE and the FBI acted promptly to implement the MOA. ICE appointed an
  employee to serve as the Deputy Section Chief to TFOS, and former ICE
  Assistant Secretary Garcia signed the collaborative procedures on
  July 2, 2003. FBI Director Mueller signed the collaborative procedures on
  July 7, 2003. A copy of the collaborative procedures is included in
  Appendix D.

  The collaborative procedures required ICE to establish a Joint Vetting Unit
  (JVU) staffed by ICE and FBI personnel to serve as a central intake center
  for information from ICE agents about financial cases and leads that have a
  potential nexus to terrorism. ICE established the JVU, and in January or
  February 2004, the FBI appointed a TFOS Unit Chief to share JVU
  leadership with an ICE Unit Chief. The FBI JVU Unit Chief was given an
  office at ICE headquarters and access to all ICE databases.

  Under the collaborative procedures promulgated pursuant to the MOA, the
  JVU has responsibility for determining which leads and cases should be sent
  to the TFOS Deputy Section Chief for consideration. The JVU reviews case
  and lead information submitted by ICE field offices, such as names,
  addresses, nationality, and banking data. It also reviews reports from the
  FBI’s National Threat Center Section and the ICE Office of Intelligence.

Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                 Page 6
                          The JVU checks the information against appropriate FBI databases to learn
                          whether the ICE information appears in any pending or closed FBI
                          investigations. If the ICE lead or case is related to ongoing or closed FBI
                          investigations, the JVU Unit Chief contacts the FBI or ICE field offices to
                          get more information. Cases associated with FBI investigations are
                          submitted to TFOS for review. In addition, regardless of whether FBI has a
                          parallel case, if an ICE case involves potential criminal charges of material
                          support of terrorism, the case information is presented to TFOS for review.
                          The TFOS Section Chief and the Deputy Section Chief review the
                          information on these cases and make a collaborative determination whether
                          the case or lead must be transferred to the JTTF. A case involving charges
                          of supporting terrorism must be transferred to the JTTFs regardless of
                          whether FBI has a prior or parallel investigation.

                          Initially, the JVU and TFOS allowed ICE and FBI field offices to coordinate
                          cases, instructing them to submit to the JVU only matters that they could not
                          reconcile locally. That practice changed after problems arose in the
                          Houston, Texas case, the subject of the first report in this review. Now, all
                          terrorism-related cases must be referred to the JVU, regardless of local ICE
                          and JTTF field office cooperation and coordination. 7

                          Other ICE Agreements Involving Law Enforcement Issues

                          In addition to the MOA, which is the subject of this review, ICE reported six
                          agreements between it and other agencies on law enforcement issues. Four
                          of the agreements existed before the creation of DHS and involved agencies
                          that were transferred to ICE and Customs and Border Protection (CBP).
                          Two agreements were established after the ICE was created. The six
                          agreements, other than the MOA addressed in detail in this report, are
                          included in the table below.




7
 A Review of FBI’s Actions in a Terrorist Financing Investigation Initiated by the U.S. Bureau of Immigration and
Customs Enforcement.

                       Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 7
 Table 1: Summary of Other ICE Law Enforcement Agreements

                  Agencies Involved                                  Subject of Agreement        Year
  Originally USCS (now ICE and CBP) and the                         Export Enforcement           1993
  Department of Commerce                                            Procedures
  Originally USCS (now ICE) and the Drug                            Title-21 Cross               1994
  Enforcement Administration                                        Designation Procedures     (amended
                                                                                                 2000)
  Originally the Department of the Treasury (now ICE)               Money Laundering             1990
  and the U.S. Attorney General and the U.S. Postal                 Investigations
  Service Postmaster General
  Originally the Department of the Treasury (now ICE)               International Drug and       1994
  and the U.S. Attorney General and the U.S. Postal                 Money Laundering
  Service Postmaster General                                        Investigations
  ICE, the U.S. Attorney’s Office, the FBI, the                     Human Trafficking          April 2006
  Department of Health and Human Services, the
  Department of Labor, and various state and local
  authorities in Missouri
  ICE, the U.S. Attorney’s Office, and various state                Established the Austin     April 2006
  and local authorities in Texas, including the City of             Human Trafficking
  Austin (also includes representatives from the FBI,               Task Force
  Department of Health and Human Services, the
  Department of Labor, and others)


Results of Review
      FBI Review of ICE Financial Leads and Cases Yields Few Transfers
                     From July 2003 through December 2005, FBI and ICE personnel reviewed
                     more than 7,274 leads, targets, and associates for possible transfer to JTTFs
                     under the MOA. The review has occurred in three phases. FBI personnel
                     conducted the first review of a select set of Operation Green Quest cases
                     before the JVU was established. Later, ICE submitted to FBI headquarters
                     the Operation Green Quest database of targets, leads, and associates for
                     evaluation. The third review phase is the ongoing JVU evaluation of current
                     cases or leads that ICE submits when cases develop a potential nexus to
                     terrorism.

                     The initial review began in July 2003 when TFOS sent an Electronic
                     Communication (EC) to the field offices announcing the collaborative
                     procedures and requesting FBI field agents to notify TFOS of any ICE cases
                     that might have or might develop a nexus to terrorism. As a result, FBI field
                     agents identified 30 such ICE cases. On October 30, 2003, a meeting was


                   Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                    Page 8
  held with FBI and ICE headquarters personnel, including TFOS, to examine
  the 30 ICE cases. At that meeting, ICE and the FBI agreed that 9 of the 30
  cases had a nexus to terrorism and should be transferred in accordance with
  the MOA. In November 2003, ICE notified the affected field offices that
  those nine cases were to be transferred to the local JTTFs. In addition, the
  ICE SAC for one other ICE case in Boston, Massachusetts, was notified that
  that case would not be transferred despite a nexus to terrorism. The decision
  not to transfer the case relied upon a provision within the MOA that allows
  terrorism-related cases to remain at ICE. The memorandum said that the
  case would not be transferred due to the cooperation and coordination
  shown by FBI and ICE agents in their investigations.

  The second review occurred when ICE provided the FBI with names and
  information from its Operation Green Quest database, including more than
  7,000 leads, targets, and associates of leads or targets. As of December
  2005, no cases were transferred to JTTFs as a result of the Operation Green
  Quest data review.

  The third review phase is ICE’s ongoing responsibility to transmit all leads
  and cases to the JVU that appear to have a nexus to terrorism. During the
  period between the establishment of the JVU and December 2005, ICE
  submitted 274 names and other identifying information to the JVU.
  However, none of the cases or leads submitted to the JVU transferred to the
  JTTFs as a result of this review process.

  TFOS transferred two additional cases to JTTFs upon the suggestion of
  other FBI personnel outside of the review process. In the first, a New
  Haven, Connecticut case, the JVU and TFOS were aware that ICE was
  investigating a case that was related to terrorism, but chose not to transfer it
  because the JTTF and ICE were cooperating in the investigation. However,
  others within FBI headquarters learned that ICE sought a search warrant in
  the case and suggested that TFOS transfer the case to the local JTTF. An
  ICE agent said that although the case was transferred to the JTTF in June
  2004, ICE was allowed to continue as the lead investigative agency, while
  conducting the investigation under the auspices of the JTTF.

  The second case transferred by means other than the review process was a
  Houston, Texas case. Again, the JVU and TFOS were aware of the case,
  but initially decided not to transfer it to a JTTF because they had not
  determined a nexus to terrorism. When other FBI headquarters officials
  learned that ICE sought an electronic surveillance warrant in that
  investigation, the TFOS Section Chief agreed to transfer the case to a JTTF.




Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                 Page 9
                          The details of that investigation and its transfer were the subject of the first
                          stage of this review. 8

                          The 11 ICE cases that transferred to JTTFs under the MOA are:

                                   1. Newark, New Jersey

                                   2. Miami, Florida

                                   3. Los Angeles, California

                                   4. Washington, DC Alpha

                                   5. Washington, DC Beta

                                   6. Washington, DC Gamma

                                   7. Panama City, Florida

                                   8. Chicago, Illinois

                                   9. Orange County, California

                                   10. New Haven, Connecticut

                                   11. Houston, Texas

                          Because the Houston, Texas case was reviewed in the DOJ report that was
                          the first stage of this joint review, we did not include that case in this report.
                          Instead, we examined the other ten cases transferred under the MOA.

                          Of the ten cases, nine were active investigations at the time of the transfer.
                          The target in the tenth case, Washington, DC Alpha, was indicted and fled
                          the United States prior to the transfer of the case. Once transferred, the case
                          could not be pursued further until the target returned to the country. We
                          assessed the levels of coordination and cooperation between ICE and FBI
                          agents prior to the transfer of the ten cases. Because further investigative
                          activity was not indicated in the Washington, DC Alpha case, we assessed
                          post-transfer interagency coordination and cooperation only for the nine
                          active cases.




8
 A Review of FBI’s Actions in a Terrorist Financing Investigation Initiated by the U.S. Bureau of Immigration and
Customs Enforcement. See fn 7, supra.

                       Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                       Page 10
         Transferred Cases Benefit When ICE Agents Are Detailed to JTTF
                           In reviewing the cooperation and coordination of cases before and after they
                           were transferred, the investigations benefited when ICE detailed its case
                           agents to the JTTFs to assist with the investigations. In our interviews with
                           ICE agents, we noted a positive shift in their impressions of FBI cooperation
                           from when the ICE agents worked on the cases solely under ICE to when
                           ICE agents worked on the cases through participation on the JTTFs. The
                           ICE agents who had reported pre-transfer problems with the FBI said that
                           cooperation and information sharing was good or improved after the case
                           was transferred and they were detailed to the JTTFs. Those ICE agents who
                           did not report pre-transfer problems and who were detailed to work on
                           transferred cases said that the level of cooperation and coordination
                           remained good after the ICE case was transferred. Moreover, all ICE agents
                           who were detailed to JTTFs to work on cases transferred there reported that
                           their experience and expertise had been fully used to pursue the targets.
                           Those transferred investigations have been largely successful, according to
                           ICE agents, with two cases resulting in convictions, an arrest in one case,
                           and another close to indictment. We summarized pre-transfer and post-
                           transfer progress in Table 2 on page 17.

                           Pre-transfer Coordination and Cooperation

                           According to ICE agents, seven of the ten cases experienced problems with
                           FBI cooperation prior to the transfer of the case to the JTTFs. Major areas
                           of difficulty, according to the ICE agents, were FBI delays or refusals
                           regarding investigative actions that required court approvals, such as search
                           warrants, and FBI impediments to information sharing. ICE agents said that
                           the FBI impeded or prevented ICE’s requests for search warrants, pen
                           registers, 9 or Title III electronic surveillance warrants in four cases. The
                           FBI would not share or was slow to share information from its
                           investigations of the same or related targets, according to ICE agents from
                           five cases. For example, the ICE agents said that among the information
                           that the FBI would not share was information that ICE headquarters had
                           obtained, and then shared with the FBI. The FBI classified the information
                           and then refused to share it with ICE, claiming that ICE did not have a
                           “need to know” the information. Agents from two of the five cases said that
                           the FBI claimed that ICE agents had inadequate clearance levels or no “need
                           to know.” In the third case, FBI headquarters was slow to review and at
                           times required ICE agents to resubmit their security clearance
                           documentation, which delayed the local JTTF from sharing the case

9
 A pen register is a device that records the telephone numbers or internet protocol addresses accessed by a particular
communication device (such as a telephone or a computer). Pen registers do not record the content of
communications.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 11
  information for more than a year. In another case, the ICE agent familiar
  with it said that problems in information sharing occurred inadvertently as a
  result of the difficulty of exchanging information among several agencies.

  Other, more general issues were reported also, such as FBI reluctance to
  allow ICE agents to assist on search warrants that arose from information
  obtained by ICE during its investigation, and the FBI and the United States
  Attorney’s Office (USAO) not including ICE agents in meetings to discuss
  investigations associated with ICE cases. We also learned of one case in
  which FBI JTTF agents said that ICE impeded a JTTF investigation. We
  will discuss this case further in the following sections.

  We did not attempt to investigate fully the accusations that the FBI did not
  cooperate with ICE investigations before the investigations were transferred
  to the JTTFs. However, in an effort to learn the progress of three
  investigations that were transferred to JTTFs, we spoke with three FBI
  agents familiar with those cases. During those interviews, we inquired
  about ICE’s accusations of poor cooperation prior to case transfer. The FBI
  JTTF supervisor for the Miami, Florida case reported that the JTTF had an
  open investigation on some of the associates of the Miami, Florida ICE
  subject before ICE opened its case, and the ICE Miami, Florida case was a
  small part of a larger JTTF investigation. The FBI JTTF supervisor could
  not recall whether the FBI and the USAO replaced ICE’s pen registers with
  its own in April 2003. The FBI JTTF supervisor said that he had invited
  ICE agents to submit their security clearances and come to the JTTF to
  review the case information, but the ICE agents never accepted the offer.

  The FBI JTTF supervisor for the Los Angeles, California case said that ICE
  did not cooperate with the JTTF in its investigation of the Los Angeles,
  California target, despite a clear need, as the JTTF had an investigation on
  the target at the time ICE initiated its case on the same target. According to
  the FBI JTTF supervisor, cooperation between ICE and the FBI was good
  initially. For example, the day after ICE opened its Los Angeles, California
  investigation, the JTTF gave all the ECs related to the case to ICE,
  according to the JTTF supervisor. An ICE JTTF agent in Los Angeles
  confirmed that the FBI cooperated with ICE by sharing information and
  seeking assistance and expertise from all sources. The FBI JTTF supervisor
  said it was the USAO, not the JTTF, that decided to stop an ICE search
  warrant because the JTTF was considering a Title III warrant for its case.
  Cooperation with ICE broke down, according to the FBI JTTF supervisor,
  when ICE did not inform the JTTF of important activities, such as arresting
  the target, and attempting to block the FBI JTTF supervisor from
  interviewing the target. In addition, the FBI JTTF supervisor said that after
  the MOA was executed, the Los Angeles ICE SAC removed all ICE agents
  from the Los Angeles JTTF. Six months later the agents were returned to

Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 12
                          the JTTF, but ICE field office management instructed the agents not to assist
                          with any JTTF financial investigations. ICE prevented the ICE agent who
                          had worked on the JTTF investigation that involved the Los Angeles,
                          California target from continuing work on that investigation, and the
                          investigation has suffered as a result, according to the FBI JTTF supervisor
                          and an ICE agent.

                          The Newark, New Jersey, Supervisory Special Agent we interviewed was
                          not assigned to the ICE case until August 2004. He told the OIGs that he
                          was not aware of any pre-transfer coordination problems between ICE and
                          the FBI.

                          Post-transfer Coordination and Cooperation

                          After the nine active cases were transferred to the JTTFs, ICE agents
                          associated with six cases were detailed to the JTTFs to continue working on
                          the investigations. In each of the six cases, the ICE agents and their
                          supervisors reported that cooperation with the FBI on the JTTF was good or
                          improved after the transfers. None said that the FBI tried to impede the
                          investigation in any way, and all said that they had been given full access to
                          FBI information and systems. The ICE agents reported that their experience
                          and expertise were used in the investigations. They served as affiants on
                          search warrants or arrest warrants in three of the six cases, and all reported
                          either serving as the case agent or being provided equal standing with FBI
                          JTTF agents.

                          The six cases in which ICE agents have continued to work on the transferred
                          investigations have progressed well, according to the ICE agents. The New
                          Haven, Connecticut case has resulted in the target’s arrest, and the
                          Washington, DC Beta and Washington, DC Gamma investigations have
                          brought convictions. ICE agents working on the Panama City, Florida
                          investigation said that they anticipated obtaining an indictment in the
                          summer of 2006. Investigation is ongoing and active in the Chicago, Illinois
                          case. The Orange County, California case concluded when the USAO
                          declined prosecution.

                          In the remaining three cases – Newark, New Jersey, Miami, Florida, and
                          Los Angeles, California – ICE did not detail its case agent to the JTTFs
                          when the investigation was transferred. Almost a year after the Newark,
                          New Jersey case transferred, ICE detailed to the JTTF an agent who had not
                          worked previously on the investigation. 10 The ICE agent became the
                          investigation’s case agent. According to the ICE agent, the FBI JTTF

10
  We interviewed the original ICE case agent and the agent’s supervisor, as well as the ICE agent who was detailed to
the JTTF to investigate the case.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 13
                          agents handling the Newark, New Jersey case before him had done very
                          little investigative work because the FBI had a large number of higher
                          priority cases. However, an FBI agent familiar with the investigation said
                          that one FBI JTTF agent had actively pursued the investigation.

                          Once the ICE agent was detailed to the JTTF to work on the Newark, New
                          Jersey case, the ICE agent actively pursued the investigation. The only
                          problems the ICE agent reported were what he perceived as cumbersome
                          and bureaucratic JTTF procedures that slowed the investigation. To
                          overcome one of the procedural problems, the JTTF allowed the ICE agent
                          to use ICE financial analysts to review some records. Using FBI analysts
                          would have taken longer because a large volume of other priority work had
                          to be completed. The investigation progressed until November 2005, when
                          the ICE agent transferred to a new unit in ICE. The JTTF supervisor for the
                          case said that he anticipated closing the criminal investigation because the
                          target had slowed suspicious activities and recently obtained information
                          may undercut the suspected link between the target and terrorism.

                          As with the Newark, New Jersey investigation, when the Miami, Florida and
                          Los Angeles, California cases were transferred, the ICE agents who had
                          worked on the investigations were not detailed to the JTTFs. Unlike the
                          Newark, New Jersey case, however, ICE did not detail another ICE agent to
                          the JTTF to assist in the investigation, or assign the ICE agent already
                          serving on the JTTF to the newly transferred case. Although ICE agents in
                          the Miami, Florida and Los Angeles, California cases were invited to
                          continue their investigations on the JTTFs, ICE field agents decided not to
                          detail the ICE case agents due to the problems that they had experienced
                          previously with the FBI and JTTFs. 11 ICE involvement in the Miami,
                          Florida and Los Angeles, California cases ended after the cases were
                          transferred. Accordingly, the ICE agents did not know the current status of
                          the Miami, Florida and Los Angeles, California cases.

                          The Los Angeles, California and Miami, Florida FBI JTTF case supervisors
                          also said that the transferred ICE criminal investigations have continued to
                          be active, although neither the Los Angeles, California nor the Miami,
                          Florida target has been indicted. The Miami, Florida investigation has
                          resulted in four indictments against the target’s associates on mail fraud and
                          money laundering charges.



11
  In addition, the ICE agents familiar with the Miami, Florida investigation said that after the case transferred, ICE
was asked to provide financial investigation training to JTTF members and to allow the former ICE case agent to
interview the target. An ICE agent said she refused the requests due to the poor cooperation that ICE had experienced
with the FBI prior to the transfer of the case.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 14
  In the Los Angeles, California case, the JTTF is monitoring pen registers,
  preparing an application for a Title III warrant, and has seized illegal drugs
  and money. JTTF agents have indicted one of the target’s associates on
  money laundering and illegal drug charges. The JTTF will attempt to use
  the indictment to obtain cooperation from the target and more information
  against the Los Angeles, California target, according to the FBI JTTF
  supervisor.

  In summary, before the nine active cases were transferred, ICE agents from
  seven of the cases reported poor levels of cooperation between ICE and the
  FBI. Once the cases were transferred, ICE agents were assigned to six of
  the cases. In the seventh, an ICE agent was detailed to the JTTF to work on
  the case almost one year later. All seven cases have progressed, some with
  tangible investigative outcomes. The ICE JTTF agents report good
  cooperation between the FBI and ICE agents involved with the cases. In the
  two cases in which ICE did not detail an agent to work on the case, the JTTF
  agents continued to pursue the investigations despite a lack of ICE
  involvement. Also, in these two cases the FBI reported, and an ICE agent
  familiar with one case confirmed, poor levels of cooperation from ICE.




Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 15
Table 2: Summary of Ten Cases Transferred

    Case           Before Case Transferred                              After Case Transferred
                ICE agents said   ICE agents           ICE Agent       Cooperation        Case Status
                    that FBI     said that FBI          Working
                 Prevented or    Prevented or           Case on
                 Delayed ICE        Delayed              JTTF
                 Pen Registers,   Information
                     Search        Exchange
                  Warrants or
                   Title IIIs
Newark,         Yes              Yes                 Not initially.    Good             Suspicious activity has
New Jersey                                           ICE detailed                       slowed. Links to terrorism
                                                     an agent to                        may be dispelled.
                                                     JTTF and                           Criminal case may be
                                                     case almost                        closed or moved to
                                                     one year                           another squad as a result.
                                                     later.
Miami,          Yes                 Yes, but FBI     No                ICE field        4 targets associated with
Florida                             said it                            agents           the ICE target were
                                    attempted to                       refused to       indicted. ICE target
                                    share                              train FBI        investigation moved to
                                    information.                       agents and to    another JTTF team.
                                                                       conduct
                                                                       interview of
                                                                       target.
Los             Yes, but FBI        No               No                Former ICE       Investigation ongoing.
Angeles,        said the USAO                                          JTTF agent       Pen registers up, illegal
California      blocked the                                            directed not     narcotics and cash seized.
                search                                                 to assist in     Preparing Title III
                warrants.                                              investigation.   application, and target’s
                                                                                        associate indicted.

Washington,     Yes                 No               Not               Not              Target indicted and fled
DC Alpha                                             Applicable        Applicable       U.S. before transfer to
                                                                                        JTTF.
Washington,     No                  Yes, but         Yes               Good             One conviction;
DC Beta                             unintentional.                                      investigation ongoing.
Washington,     No                  Yes              Yes               Good             Conviction.
DC Gamma
Panama          No                  Yes              Yes               Good             Indictment pending.
City, Florida
Chicago,        No                  No               Yes               Good             Investigation ongoing.
Illinois
Orange          No                  No               Yes               Good             USAO declined
County,                                                                                 prosecution in 2005.
California
New Haven,      No                  No               Yes               Good             Arrest.
Connecticut




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 16
ICE Agents’ Dissatisfaction with MOA May Lead to Failure to Pursue
Leads and Cases with Potential Terrorism Nexus
           ICE agents have misperceptions of the MOA and its procedures, and some
           resent the MOA and the FBI. As a result, ICE agents and headquarters
           officials reported some ICE agents fail to pursue leads and cases that might
           develop a nexus to terrorism. Further, agents may not be sending potential
           terrorism related leads and cases to the JVU or to the JTTFs. The failure to
           pursue or report terrorism related cases would violate the terms of the MOA
           and would be detrimental to national security. However, none of the ICE
           agents we interviewed provided specific instances of violations and agents
           spoke of the matter in more broad terms. We have no direct evidence that
           any ICE agent has actually been derelict.

           Nine agents from three field offices and ICE headquarters told us that they
           or other agents drop leads that appear to have a terrorism nexus, or choose to
           ignore a terrorism nexus and select violations unrelated to terrorism, in order
           to continue the case without FBI involvement. One senior field office
           manager provided a hypothetical choice between a case that does not have a
           potential nexus to terrorism and another that might develop such a nexus.
           The field office manager said that if a case agent came across two leads in
           the course of an investigation, one that led to illegal narcotics charges, and
           one that might result in a nexus to terrorism, the agent would develop the
           case on the narcotics-related lead. He added that agents should normally
           send the lead with the potential link to terrorism to the JTTF, but that this
           does not always happen.

           Within 18 months of its inception, Operation Green Quest had opened 2,000
           cases and obtained 79 arrests, 70 indictments, and seizures of $33 million.
           However, according to a June 25, 2003, memo from the ICE Deputy
           Assistant Director for Financial Programs, Operation Green Quest
           investigations rarely developed into terrorist financing cases. In
           confirmation of that assertion, only nine of the 2,000 cases were transferred
           initially. The other cases were primarily financial crimes without a
           terrorism nexus. While not conclusive, the fact that only two cases have
           been transferred to the JTTFs in the more than two years since the initial
           review of former Operation Green Quest cases supports the contention that
           ICE agents do not pursue leads and cases with potential terrorism links.
           However, there may be other reasons for the low number of transferred
           cases. Some ICE agents have suggested that before and immediately after
           September 11, 2001, terrorist financiers operated more openly, making them
           relatively easy to identify. Since then, however, terrorist financiers,
           realizing that their activities are likely being monitored by law enforcement,
           may have become more careful to avoid detection. In response to our draft


         Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                         Page 17
                          report, ICE officials named another reason why the number of cases
                          transferred to JTTFs is low. The officials said that ICE now deconflicts
                          certain leads with the FBI before ICE begins an investigation. Accordingly,
                          leads that might have a terrorism nexus are transferred before ICE opens a
                          case.

                          Some ICE agents reported to us highly negative views and significant
                          misinformation about JTTF handling of terrorist financing cases under the
                          MOA. In our interviews ICE agents told us that:

                               •    The FBI-led JTTF does not actively pursue terrorist financing cases
                                    that transfer to the JTTF; 12
                               •    The FBI’s long-term intelligence gathering strategy precludes
                                    criminal convictions in some cases; 13
                               •    FBI JTTF agents have such a large caseload that they are unable to
                                    address terrorist financing cases; 14 and,
                               •    The FBI is unable to lead terrorist financing cases under the JTTF
                                    because the FBI agents lack the expertise and experience to conduct
                                    such investigations. 15

                          However, the evidence we encountered indicates that the FBI’s strategies,
                          priorities, and alleged inexperience with financial crimes cases have not
                          hampered the investigation of transferred ICE cases or prevented ICE agents
                          from actively pursuing transferred cases when ICE has detailed an agent to
                          the JTTF to assist in the investigation. The issues reported by ICE agents
                          have not held back the progress of the six investigations that were
                          transferred with the ICE case agent to the JTTF. As for the cases in which
                          the ICE case agent was not detailed to the JTTF, Miami, Florida and Los
                          Angeles, California, the JTTF has continued active criminal investigations
                          in those cases.

                          Regarding the FBI’s focus on other priorities, only one of the nine active
                          cases that transferred, Newark, New Jersey, appeared affected. The ICE
                          agent assigned to the Newark, New Jersey case almost a year after it went to
                          the JTTF said that FBI JTTF agents had not pursued the investigation since
                          the case was transferred because of their large case load of higher priority
                          investigations. However, when ICE detailed an agent to the JTTF to work
                          on the case, the investigation progressed satisfactorily.


12
   Five of these agents had experience with a transferred case that ICE perceives to be going poorly. One agent was
involved in a case that was not transferred to the JTTF, but that agent encountered problems with the FBI.
13
   ICE agents from three field offices made this allegation.
14
   ICE agents from two field offices discussed this issue.
15
   ICE agents from five field offices cited this concern.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 18
  Another misperception held by ICE agents is that ICE will not receive a
  share of the recognition for successful cases. ICE has received credit for
  some of the investigative successes in cases that have transferred to JTTFs.
  In three of the six cases in which the ICE case agent was detailed to the
  JTTF, the ICE agent was the affiant on court ordered investigative activities,
  such as search and arrest warrants.

  Other ICE agents said that they would not want a detail to the JTTFs to
  work transferred cases because they would not want to be governed by an
  FBI management structure, which they believed would treat them
  inequitably. A similar complaint was that in moving to the JTTF, an agent
  would lose operational control of the case. However, the ICE agents who
  were detailed to JTTFs to work on the investigations told the OIGs that they
  served as the case agents or had status equal to the FBI JTTF agents. No
  one complained of inequitable treatment, and some said that they wished
  ICE would encourage more agents to work on the JTTFs.

  Even though they had no JTTF experience, three agents from two field
  offices said that the MOA was a means by which the FBI could “take” or
  “steal” cases from ICE, and one of those agents believed that if a case were
  transferred, ICE would no longer have an opportunity to work it. However,
  the only transferred cases that were not investigated by ICE agents were
  cases where ICE chose not to detail the agent to the JTTF. When ICE
  detailed an ICE case agent with a case to the JTTF, the ICE agents said that
  they continued as the case agent or had equal standing with the other JTTF
  agents. The perception that the FBI takes cases away from ICE agents was
  not supported.

  Four ICE agents from two field offices said that the MOA undercuts the ICE
  mission to target support for terrorism by requiring terrorism-related cases
  to be transferred to the JTTFs. Although these agents recognize that the FBI
  has the lead on terrorism investigations, they said that ICE has the expertise
  to combat terrorist financing and a mission to protect the country from
  terrorist attacks as a member of DHS. However, ICE fulfilled its mission
  when it detailed its case agents to continue investigative work on ICE cases
  that transferred to the JTTFs. For example, when an ICE agent transferred
  with the case, three of the six resulted in arrests or convictions, two are
  being investigated actively, and one was closed after the USAO declined
  prosecution. By detailing ICE agents to the JTTFs to work terrorism-related
  cases, ICE can pursue its mission and leverage its experience and expertise
  in financial crimes with a nexus to terrorism.

  Two ICE headquarters employees acknowledged that ICE field agents
  suffered from misperceptions of the purpose and effect of the MOA. One
  ICE headquarters agent confirmed that ICE agents believe that the FBI uses

Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 19
           the MOA to steal ICE cases, but stated that such allegations were incorrect.
           Another senior ICE official said that ICE was “self-limiting” with regard to
           terrorist financing cases – that is, ICE agents would not pursue leads and
           cases with a potential link to terrorism, to avoid transfer to the JTTF. The
           headquarters employee said that the agents’ misperceptions of the MOA
           were partly to blame for their dissatisfaction with it.

           However, ICE management has not implemented measures to overcome its
           agents’ misperceptions. Aside from a few case-specific visits to the field,
           ICE management has not adequately communicated with its field agents to
           alleviate the misinterpretations of the MOA that have contributed to the
           alleged reluctance to pursue terrorism-related cases through the JTTFs.

           In summary, we encountered suspicion and hostility from ICE agents
           towards the MOA, but their claims about the way the JTTFs operate were
           unfounded. We were also extremely troubled that ICE agents would say
           that their agents declined to undertake a case of potential national security
           significance for such petty reasons. We know of no investigation that was
           ignored for such reasons, and there are alternative explanations for the low
           numbers of cases transferred after the initial review of the 2,000
           investigations. On closer examination, the discussions to which we were
           privy fell into more general characterizations of what “other agents” might
           do rather than the actions of agents we interviewed. Thus, while the
           hostility to the FBI’s dominance in the field of terrorist financing
           investigations is palpable, we have no direct evidence that any ICE agent
           has actually been derelict.

           However, even a discussion along these lines is unacceptable and violates
           the agent’s duties and responsibility. ICE should act to defuse the
           misperceptions about the MOA and ensure that the terms of the agreement
           are enforced and obeyed.


Changes to the MOA Are Unnecessary
           ICE field agents recommended several changes to the MOA in order to
           address the issues that they perceived as hampering terrorist financing
           investigations. Three agents suggested that ICE be allowed to work terrorist
           financing cases in a coordinated manner with the JTTFs by allowing ICE
           concurrent jurisdiction. Coordinating but not transferring a case with a
           terrorism nexus has been successful in some instances. In Atlanta, Georgia
           and Boston, Massachusetts, ICE agents and JTTF agents were coordinating
           independent cases that appear to have a nexus to terrorism, but were not
           transferred to the JTTF. The ICE agents working on those cases are not on
           the JTTF, yet they report that the coordination between ICE and the JTTF is

         Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                         Page 20
            working well. For example, the agents said that they served as the affiants
            on court documents and that the FBI has given ICE full access to JTTF case
            information. Criminal complaints have been issued in the case in Boston,
            Massachusetts. The ICE agents in Atlanta, Georgia said that the FBI
            requested their assistance and that the case is progressing. The agents said
            that coordinating cases without transferring them to the JTTFs works well.

            This sample of cases is too small to draw broad conclusions, but the fact that
            some investigations can operate successfully without an MOA does not
            mean all can. The MOA resulted from prior problems, and there is
            insufficient evidence supporting a need to relinquish FBI authority over
            terrorist financing investigations or to nullify the MOA. We therefore
            disagree with the suggested changes proposed by some ICE agents. In fact,
            the evidence indicates that the cases that were transferred from ICE to the
            JTTFs have been pursued aggressively, and when ICE agents have been
            detailed to the JTTFs to continue working on the investigations, their
            expertise has been used fully.

            Moreover, before the MOA was in place, ICE and the FBI complained of
            poor coordination and communication. The FBI said that terrorist financing
            cases might have been compromised due to those conditions. Now, when
            cases are worked on JTTFs, a single chain of command ensures coordination
            and information exchange. In addition, with almost all transferred cases, the
            FBI has employed the expertise of ICE agents to bring the full weight of the
            law to investigations of terrorist financing.


Ineffective MOA Instruction to Field Agents
            ICE management has not communicated the MOA’s purpose and procedures
            adequately to its field agents. In addition, FBI agents have little
            understanding of the MOA and its procedures. As a result, not only are
            some ICE and FBI agents confused about the MOA’s procedures and effect,
            but ICE agents may be dropping leads and cases as a result of their
            misperceptions. The fact that misperceptions persist suggests that ICE and
            FBI’s outreach and education on the MOA remain ineffective.

            ICE Instruction to Field Agents

            In addition to the misperceptions discussed in previous sections, ICE agents
            do not have a clear understanding of basic screening procedures for
            determining whether a case should be transferred to a JTTF under the MOA.
            Ten ICE agents from eight field offices said that cases with a potential nexus
            to terrorism should be vetted through local FBI and JTTF offices, but they


          Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                          Page 21
  did not realize that the JVU should also receive that information for the
  same purpose.

  ICE made its field offices aware of the MOA and collaborative procedures
  through three memoranda issued in 2003. The first memorandum was sent
  to the field offices on June 2, 2003, from the ICE Interim Director of
  Customs Investigations. It notified all ICE SACs of the MOA and the
  termination of Operation Green Quest. The ICE Deputy Assistant Director
  for Financial Programs sent a second memorandum to all SACs on
  June 25, 2003, which served as a reminder of the MOA and noted that the
  MOA would likely affect only a small number of ICE investigations because
  Operation Green Quest leads rarely involved terrorist financing. Finally,
  ICE outlined the provisions of the MOA and introduced the collaborative
  procedures to all ICE SAC offices in a third memorandum dated
  August 7, 2003. Since that memorandum, there has been no other written
  communication from ICE headquarters to the field offices regarding the
  MOA or its related procedures.

  In addition to issuing the memoranda, the ICE Deputy Section Chief of
  TFOS briefed the ICE SACs on the MOA and its procedures at two annual
  ICE SAC conferences. However, officials from ICE headquarters have not
  communicated directly with field office financial crimes supervisors or
  agents about the MOA and its procedures.

  ICE only communicated the procedures and purpose of the MOA to ICE
  SACs through three memoranda and through the annual SAC conferences,
  and did not attempt to train its field agents or supervisory agents about the
  MOA. Relying on the ICE SACs to present the information and ensure that
  it is understood has not served as an effective mechanism to inform agents.
  As a result, serious misperceptions are hampering effective enforcement of
  the MOA and, according to agents and officials alike, may cause ICE agents
  to consider abandoning leads and cases, rather than risk having them
  transferred to JTTFs. Given the level of misunderstanding and even
  hostility towards the MOA, ICE officials should implement measures to
  educate field agents on the MOA and its procedures, the successes of the
  transferred cases, and the satisfactory experiences ICE agents encountered
  when detailed to the JTTFs.

  FBI Instruction to Field Agents

  The FBI’s implementation of the MOA was more thorough than ICE’s, but
  also had shortcomings. The FBI issued five ECs to the field, the most recent
  in February 2005, and provided training on the MOA and its procedures to
  the field agents.


Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 22
                          The first EC was sent to FBI field offices in May 2003, shortly after the
                          MOA was finalized. The EC summarized the MOA and required each field
                          office to send a designated terrorist financing coordinator to a headquarters
                          meeting to learn more about the MOA and TFOS. The FBI notified all field
                          offices of the establishment of the collaborative procedures on July 8, 2003,
                          via an EC. The EC also required each office to notify TFOS of any ICE
                          financial investigations that had an existing or developing nexus to
                          terrorism.

                          The FBI sent two ECs in 2004, reminding the field offices of the MOA and
                          the procedures established to fulfill it. On April 12, 2004, FBI headquarters
                          sent an EC to all FBI field offices, legal attaches overseas, and International
                          Terrorism Operations Section personnel. 16 The EC again summarized the
                          MOA and added that TFOS would provide overall operational command to
                          terrorist financing investigations on the JTTFs. It also stressed the
                          importance of information sharing with members of the JTTFs and ensuring
                          that ICE agents detailed to the JTTFs are given a “fully integrated role.”
                          Three months later, on July 13, 2004, TFOS distributed an EC to FBI field
                          offices updating them on the implementation of the MOA, explaining the
                          role of the JVU, and noting that ICE agents detailed to the JTTFs to
                          continue working on the transferred cases should be given “significant
                          roles” in the investigations.

                          After difficulties arose in the Houston, Texas case, the FBI sent another EC
                          to the field. The February 2005 EC from the TFOS Section Chief reminded
                          the FBI field offices to comply with the MOA and cautioned that there had
                          been instances where FBI field offices had not accepted ICE field office
                          recommendations to transfer terrorist financing cases to the JTTFs. Those
                          failures, the EC noted, proved problematic for FBI headquarters. The EC
                          included copies of the MOA and collaborative procedures.

                          In addition to the ECs, the FBI has provided various training sessions to its
                          field office personnel on the MOA and its procedures. The first training was
                          given in 2003 to field office terrorist financing case coordinators who had
                          been appointed in accordance with the May 2003 EC. Since that initial
                          training, training has been repeated each year at the annual terrorist
                          financing case coordinators meeting in Washington, DC. After issues arose
                          with the Houston, Texas case in 2005, the FBI began including MOA
                          procedures and compliance in the regular training TFOS administers to
                          JTTF field offices. Part of the training emphasizes that the transfer of cases
                          under the MOA is not to be made informally at the discretion of the field


16
  The International Terrorism Operations Section is a part of the Investigative Operations Branch of the FBI. It
“supports, coordinates, and provides oversight of FBI international counterterrorism operations.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 23
  offices. The MOA and its procedures are also addressed in an annual
  conference of FBI supervisory special agents.

  Despite its ongoing communications and training, several FBI agents with
  whom we spoke did not know that ICE should vet cases through the JVU if
  they suspect a nexus to terrorism. Five of the seven FBI field office
  personnel with whom we spoke were not familiar with the JVU. As FBI
  field offices do not have a large role in the vetting process supporting the
  MOA, the field agents’ confusion over vetting procedures is not very
  problematic. However, it would be advantageous for FBI agents to
  understand the purpose and importance of the vetting process under the
  MOA. Doing so would enhance coordination activities with TFOS and
  ensure that the JTTFs do not agree to coordinate ICE cases with a nexus to
  terrorism without express approval from TFOS.

  For the cases that were transferred, FBI agents, either through the ECs and
  training or by their own initiative, have followed the MOA’s instruction that
  ICE agents be fully integrated into the investigation, factors which have
  contributed to the success of the MOA. The FBI should ensure that its field
  offices continue the practice of making detailed ICE agents the case agents
  for transferred ICE cases and provide the ICE agents the opportunity, when
  appropriate, to serve as the affiant on search and arrest warrants. ICE agents
  who developed cases that were transferred to the JTTFs have a sense of
  ownership and pride in their investigations. Additionally, they have
  expertise and experience not just in the transferred case, but also in general
  immigration and customs matters. Their special expertise should be
  recognized to best pursue all investigative avenues that may arise in a case.

  We are recommending that the Assistant Secretary for ICE:

  Recommendation 1: Routinely communicate with ICE agents the purpose
  and impact of the MOA and its collaborative procedures, as well as the
  successes of cases in which ICE case agents transferred to JTTFs to
  continue investigating a case.

  Recommendation 2: Convey to ICE agents their responsibility to report
  potential terrorism leads and cases to the JVU. Promote the detailing of ICE
  agents to the JTTFs by communicating that working on the JTTFs is a
  priority for ICE, for the department, and an opportunity for ICE to
  investigate terrorist financing.

  We are recommending that the FBI Director:

  Recommendation 3: Ensure that the FBI field agents understand the role
  of the JVU and understand that ICE cases with a nexus to terrorism will be

Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 24
              investigated solely through the NJTTF, JTTFs, and TFOS, except as
              expressly approved by TFOS.

              Recommendation 4: Encourage FBI field offices to continue full
              utilization and integration of detailed ICE agents investigating transferred
              ICE cases.


Management Comments and OIG Analysis

              We evaluated the technical and formal comments submitted by ICE and the
              FBI and have made changes to the report where we deemed appropriate.
              Below is a summary of each bureau’s written response to the report’s
              recommendations and our analysis of the response. A copy of ICE’s
              response, in its entirety, is recorded in Appendix F and Appendix G contains
              the FBI response, in its entirety.

              The draft report was provided to ICE and the FBI under the provisional
              classification of “SECRET” and with it was an unclassified summary. Both
              the ICE and the FBI responses address the report and the summary.
              However, as the report has subsequently been determined not to contain
              classified information, the summary is not necessary and will not be
              published. Accordingly, we performed an analysis on only the responses to
              the report.

              Further, we made three recommendations to ICE in the draft report, but
              subsequently have combined two of those recommendations. In this report,
              recommendation 1 and 2 are directed to ICE, and recommendation 3 and 4
              are directed to the FBI. Further, the FBI provided alternative language for
              recommendation 3 to address any potential confusion from “informal”
              coordination if a potential or probable terrorism nexus is developed. We
              agree with the FBI’s proposed changes to the recommendation and have
              modified it.


    ICE Response
              ICE made two comments that merit modifying the report and two comments
              that do not. First, we agree with ICE that the report should note the FBI
              appointed a TFOS Unit Chief as the co-lead of the JVU. Second, we also
              agree the language about statements that ICE agents may fail to pursue
              terrorism-related cases should be changed. We modified the report
              accordingly.


            Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                            Page 25
          However, we did not modify the report in response to two comments that
          dispute the accuracy of the report’s findings related to ICE’s actions to
          inform and educate their investigators of the MOA and collaborative
          procedures. We asked several ICE officials and ICE investigators in the
          field to describe any training or other information they received related to
          the MOA and collaborative procedures. The report reflects what they said.
          In addition, during our fieldwork we requested ICE to provide:

                    “Any policies, instructions, directives, procedures, notices,
                    etc. related to submission of names, email addresses,
                    telephone numbers, or other identifying information to DOJ
                    in accordance with the MOA.”
                    “All such documents since the implementation of the MOA
                    through the present.”
                    “All communication to ICE field offices.”

          Other than the three memoranda referenced in the report, we did not receive
          any documents from ICE in response to our request.


ICE Response to Recommendations
          Recommendation 1: Routinely communicate with ICE agents the purpose
          and impact of the MOA and its collaborative procedures, as well as the
          successes of cases in which ICE case agents transferred to JTTFs to
          continue investigating a case.

          ICE Response: In its response, ICE listed a variety of activities by which it
          communicates with its agents about the MOA and successful ICE
          investigations. ICE said it regularly disseminates the MOA and the
          collaborative procedures that govern ICE’s responsibilities under the MOA,
          and that those documents are available on ICE’s internal website. ICE
          reported it has provided guidance and instruction to all Special Agents-in-
          Charge, Deputy and Assistant Special Agents-in-Charge, and financial
          group supervisors on their responsibilities under the MOA. ICE said that
          the MOA and its procedures were presented in basic and advanced agent
          training classes as well. Additionally, ICE reported that it uses various
          communication methods, such as the ICE website and news releases, to
          provide employees information about all successful ICE investigations on
          both JTTF and non-JTTF related cases.

          OIG Analysis: ICE’s response outlines efforts to communicate with its
          agents about the MOA, the collaborative procedures, and investigative
          successes. However, ICE’s outlined activities do not fully address the intent
          of this recommendation, which is: to improve ICE agents’ attitude toward

        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                        Page 26
  the MOA, the collaborative procedures, and working with the JTTFs. To
  dispel the negative attitude toward the MOA, ICE needs to instill a better
  understanding of the purpose and impact of the MOA and collaborative
  procedures. This understanding would help dispel the negative attitude
  some ICE agents have toward the MOA, the collaborative procedures, and
  working on the JTTFs.

  We made this recommendation because many ICE agents expressed dislike
  for MOA and for investigating a terrorism-related case on a JTTF. We
  determined, however, that ICE agents who were detailed to JTTFs to
  continue working their transferred cases were satisfied with the JTTF
  environment, and most achieved successes with their cases. By contrast,
  none of the transferred cases for which an ICE agent refused a detail to the
  JTTF achieved the same level of investigative success.

  This recommendation is resolved, but remains open pending our receipt of
  additional information. To close this recommendation, ICE should provide
  us with the content of its memoranda, training materials, and other
  communications that are directed at educating its agents about the MOA and
  collaborative procedures, as well as successful investigations on the JTTFs.
  The content of those documents should reflect the MOA’s purpose to align
  ICE and FBI efforts to pursue terrorism-related cases; describe the limited
  impact of the MOA on ICE; and, explain the successes that ICE agents have
  achieved in terrorism-related cases while working on the JTTFs. In
  addition, the past and future distribution frequency for each of those
  communications should be indicated.

  Recommendation 2: Convey to ICE agents their responsibility to report
  potential terrorism leads and cases to the JVU. Promote the detailing of ICE
  agents to the JTTFs by communicating that working on the JTTFs is a
  priority for ICE, for the department, and an opportunity for ICE to
  investigate terrorist financing.

  ICE Response: ICE responded it continues to convey the importance of the
  proper handling and sharing of potential financial terrorism leads. ICE’s
  increased education, understanding, and promotion of the MOA have
  resulted in a shift in methodology of how terrorist finance investigations are
  worked collaboratively between ICE and the FBI. Cases are now vetted and
  coordinated at the onset, both at the field and headquarters level and ICE
  agents share information and deconflict cases with the JTTFs. ICE reported
  those efforts have significantly minimized the number of ICE cases that
  have been moved to the JTTF, and have promoted a better coordination
  between ICE and the FBI. As a result of those improvements, ICE suggests
  the need for the MOA be re-examined. ICE also said that it contributes
  significantly to the JTTFs, and will continue to detail agents to the JTTFs on

Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 27
          a case-by-case basis. Finally, ICE reported that all of its criminal
          investigative work is a priority.

          OIG Analysis: In its response, ICE provided some information about the
          effect of its educational efforts. This recommendation is resolved, but
          remains open pending our receipt of additional information. To close this
          recommendation, ICE should provide more detailed information regarding
          the actions it has taken, including documentation of its efforts to educate
          ICE investigators about their duties under the MOA and collaborative
          procedures, and to promote the detailing of its investigators to the JTTFs.
          ICE should also provide documentation to support the number of ICE agents
          working on JTTFs for fiscal years 2004 through 2006.

          ICE reported that all criminal acts investigated by ICE, are a priority for
          ICE. However, some ICE agents said if a lead or a case developed a
          potential terrorism nexus, an ICE agent would not pursue the lead or the
          terrorism aspect of the case because the lead or case would have to be
          transferred to a JTTF.

          Regarding ICE’s response that its efforts have changed the deconfliction and
          information exchanges between ICE and the JTTFs, we want a step-by-step
          explanation of how an ICE agent currently shares information about
          potential terrorism leads and cases with the JVU and JTTFs.

          ICE also suggested that the necessity of the MOA be re-examined in light of
          the improved coordination between ICE and FBI. One of our objectives was
          to examine whether the MOA should be abolished. Our fieldwork does not
          support terminating the MOA or that its necessity be re-examined.

FBI Response
          The FBI made a comment that warrants modifying the report. It said the
          discussion of the second ICE case to transfer to a JTTF, by means other than
          the review process, should be characterized differently. The text should
          state that the JVU and TFOS did not transfer the case initially because it did
          not have a terrorism nexus. The case was transferred after TFOS discovered
          such a nexus.

          We modified the report to state the TFOS managers did not transfer the case
          initially because they did not determine a terrorism nexus. However, the
          report’s description of why the case eventually was transferred reflects the
          information that we received from many sources. Accordingly, we did not
          make a change to the description of the transfer.



        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                        Page 28
FBI Response to Recommendations
           Recommendation 3 (formerly 4): Ensure that the FBI field agents
           understand the role of the JVU and understand that ICE cases with a nexus
           to terrorism may not be “coordinated” without express approval from TFOS.

           FBI Response: The FBI responded it and ICE both desire for their agents
           to coordinate matters with each other and the way the recommendation is
           currently worded might be too ambiguous. The FBI provided alternative
           language for the recommendation to address any potential confusion from
           informal coordination if a potential or probable terrorism nexus is
           developed. The FBI reported the TFOS training to JTTFs and Terrorists
           Financing Coordinators stresses that if there is a doubt or question by field
           agents or field supervisors in these matters, TFOS should be contacted for
           guidance. The FBI did not provide additional information on how or
           whether it would fulfill the intent of the recommendation further.

           OIG Analysis: This recommendation is resolved, but remains open
           pending our receipt of additional information. However, we have no direct
           authority to compel the FBI to provide such information. We do encourage
           the FBI to regularly disseminate information explaining the role of the JVU
           and the prohibition on coordinating cases without TFOS approval to its field
           agents. Documentation from the FBI to this effect would close this
           recommendation.

           In addition, we agree with the FBI’s proposed changes to the
           recommendation and have modified it accordingly.

           Recommendation 3 (Revised): Ensure that the FBI field agents understand
           the role of the JVU and understand that ICE cases with a nexus to terrorism
           will be investigated solely through the NJTTF, JTTFs, and TFOS, except as
           expressly approved by TFOS.

           Recommendation 4 (formerly 5): Encourage FBI field offices to continue
           full utilization and integration of detailed ICE agents investigating
           transferred ICE cases.

           FBI Response: In its response, the FBI concurred with our
           recommendation, but did not indicate how it would fulfill it.

           OIG Analysis: This recommendation is resolved, but remains open
           pending our receipt of additional information. However, we have no direct
           authority to compel the FBI to provide such information. We do urge the
           FBI to encourage its field offices to fully utilize and integrate ICE agents


         Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                         Page 29
  working at JTTFs on transferred ICE cases. Documentation from the FBI to
  this effect would close this recommendation.




Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                Page 30
Appendix A
Senator Grassley’s Letter




                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 31
Appendix A
Senator Grassley’s Letter




                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 32
Appendix A
Senator Grassley’s Letter




                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 33
Appendix A
Senator Grassley’s Letter




                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 34
Appendix B
Letter from Former Houston ICE SAC Webber to Senator Grassley




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 35
Appendix B
Letter from Former Houston ICE SAC Webber to Senator Grassley




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 36
Appendix B
Letter from Former Houston ICE SAC Webber to Senator Grassley




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 37
Appendix C
The Memorandum of Agreement between DOJ and DHS




                    Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                    Page 38
Appendix C
The Memorandum of Agreement between DOJ and DHS




                    Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                    Page 39
Appendix C
The Memorandum of Agreement between DOJ and DHS




                    Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                    Page 40
Appendix D
The Collaborative Procedures




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 41
Appendix D
The Collaborative Procedures




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 42
Appendix E
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                          This review was initiated at the request of Senator Charles E. Grassley,
                          former Chairman of the Senate Committee on Finance, after receiving a
                          complaint from the former ICE SAC in Houston that the FBI improperly
                          delayed the approval of an application for a criminal wiretap warrant in an
                          ICE terrorist financing investigation named the Houston, Texas case.
                          Senator Grassley asked DHS and DOJ OIGs to conduct a joint review of the
                          Houston, Texas investigation, as well as a review of the implementation and
                          effectiveness of an MOA between DHS and DOJ that governed the conduct
                          of terrorist financing investigations by ICE and the FBI. Senator Grassley
                          asked that in assessing the MOA we review the ten investigations that were
                          transferred under the MOA to the JTTFs, (those other than the Houston,
                          Texas investigation that was the subject of the ICE SAC’s complaint) to
                          determine whether they had suffered delays similar to those in the Houston,
                          Texas case and whether ICE expertise and experience in financial crimes
                          cases was being leveraged to enhance investigations of terrorist financing.
                          We were also asked to determine what modifications, if any, should be
                          made to the MOA. At a meeting on June 9, 2005, due to the broad nature of
                          the request, Senator Grassley’s staff agreed that our review would not need
                          to address Senator Grassley’s seventh question regarding ICE’s
                          investigative priorities and that the eighth question would be limited to a
                          survey of agreements on law enforcement issues. Appendix A contains a
                          copy of the Senator’s request letter.

                          The review was divided into two stages; the first stage examined the former
                          ICE SAC’s complaint, and the second reviewed the implementation and
                          effectiveness of the MOA and progress of the ten transferred cases. DHS
                          and DOJ OIGs participated equally in both stages of the review. Each was
                          active in the planning, fact-finding, and analysis tasks for the review. To
                          expedite delivery of the reviews, DOJ OIG was responsible for drafting the
                          report of the findings and conclusions of the first stage of the review. 17 DOJ
                          OIG issued the first stage report upon receiving concurrence and approval
                          from DHS OIG. Similarly, DHS OIG drafted this second stage report, and
                          obtained the DOJ OIG’s concurrence and approval prior to its issuance.

                          The overall objectives of this review were to:

                              •    Assess the progress of the ten transferred cases;

17
 A Review of FBI’s Actions in a Terrorist Financing Investigation Initiated by the U.S. Bureau of Immigration and
Customs Enforcement. See fn 7, supra.

                       Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                       Page 43
Appendix E
Purpose, Scope, and Methodology

                               •    Examine the implementation of the MOA;
                               •    Evaluate whether ICE expertise can be applied in terrorist financing
                                    cases under the terms of the MOA.
                               •    Determine whether the MOA should be revised.

                           To accomplish the fact-finding portion of our second stage review, we spoke
                           with senior ICE, FBI, and DOJ officials familiar with the MOA and ICE’s
                           terrorist financing investigations to learn about the MOA’s history,
                           implementation, and impact.

                           To determine the progress of the ten cases, we conducted telephone
                           interviews of 29 ICE case agents, supervisors, Resident Agents in Charge,
                           and Assistant Special Agents in Charge, who were responsible for the ICE
                           cases before they were transferred. 18 In three cases, the ICE agents did not
                           know the progress of the investigation subsequent to the transfer of the case
                           to the JTTF. 19 To discover subsequent progress, we interviewed three FBI
                           JTTF agents who were involved with the cases after their transfer.

                           To ascertain the success of the implementation of the MOA and determine
                           its effectiveness and impact, we asked the 29 ICE agents and the three FBI
                           JTTF agents to describe the MOA and its procedures, as well as its effect.
                           We asked the same questions of five ICE financial investigation group
                           supervisors in five geographically diverse cities from which ICE
                           investigations had not been transferred. 20 We also conducted a telephone
                           interview of FBI field personnel in Seattle, Washington to confirm
                           information that we had received from an ICE agent there.

                           Additionally, we conducted an interview of an ICE Assistant Special Agent
                           in Charge from the Washington, DC field office because he requested to
                           speak to us, and we interviewed an ICE JTTF agent in Miami, Florida who,
                           we learned, had very limited involvement with one of the cases that had
                           been transferred.



18
   The cases originated in ICE field offices located in Chicago, Illinois; Los Angeles, California; Miami, Florida; New
Haven, Connecticut; Newark, New Jersey; Orange County, California; Panama City, Florida; and Washington, DC.
Three of the investigations that were transferred to the JTTF originated in the Washington, DC field office. The six
other cities each had one case that was transferred. For some of the investigations, we interviewed more than one ICE
case agent because during the life of the investigation more than one agent had been assigned.
19
   Miami, Florida; Los Angeles, California; Newark, New Jersey. The Miami, Florida and Los Angeles, California
agents did not have any knowledge of case progress after the investigation transferred to the JTTF. The Newark, New
Jersey ICE agent had been detailed to the JTTF to work on the transferred investigation and was knowledgeable of
case progress until very recently when he was re-assigned and had ceased to be active in the JTTF investigation.
20
   Atlanta, Georgia; Boston, Massachusetts; Denver, Colorado; Minneapolis/St. Paul, Minnesota; and Seattle,
Washington.

                        Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                        Page 44
Appendix E
Purpose, Scope, and Methodology

                        We obtained and reviewed multiple documents from ICE, the FBI, and DOJ
                        that assisted in our review. We also toured the JVU facility to better
                        understand its operations.

                        We conducted our fieldwork between November 2005 and January 2006.
                        Our work was conducted under the authority of the Inspector General Act of
                        1978, as amended, and according to the Quality Standards for Inspections
                        issued by the President’s Council on Integrity and Efficiency.




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 45
Appendix F
ICE Response to Draft Report




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 46
Appendix F
ICE Response to Draft Report




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 47
Appendix F
ICE Response to Draft Report




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 48
Appendix G
FBI Response to Draft Report




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 49
Appendix G
FBI Response to Draft Report




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 50
Appendix G
FBI Response to Draft Report




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 51
Appendix H
Major Contributors to this Report


                      Department of Homeland Security OIG

                      David Hiles, Chief Inspector, Office of Inspections

                      Marcia Moxey Hodges, Chief Inspector, Office of Inspections

                      Elizabeth Kingma, Senior Inspector, Office of Inspections

                      Michelle Streit, Inspector, Office of Inspections

                      Michael Zeitler, Inspector, Office of Inspections

                      Department of Justice OIG

                      Patricia A. Sumner, Investigative Counsel, Oversight and Review Division

                      Judy A. Sutrich, Program Analyst, Oversight and Review Division




                       Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                       Page 52
Appendix I
Report Distribution


                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        General Counsel
                        Chief of Staff
                        Deputy Chief of Staff
                        Executive Secretariat
                        Assistant Secretary, Policy
                        Assistant Secretary, Public Affairs
                        Assistant Secretary, Legislative and Intergovernmental Affairs
                        Assistant Secretary, Immigration and Customs Enforcement
                        Director, ICE Office of Investigations
                        Chief Security Officer
                        Chief Privacy Officer
                        DHS OIG Liaison
                        ICE Audit Liaison

                        Federal Bureau of Investigation

                        Assistant Director for the Inspection Division

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS’ Program Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as appropriate




                      Coordination Between FBI and ICE on Investigations of Terrorist Financing

                                                      Page 53
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

   •   Call our Hotline at 1-800-323-8603;
   •   Fax the complaint directly to us at (202) 254-4292;
   •   Email us at DHSOIGHOTLINE@dhs.gov; or
   •   Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600, Attention:
       Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
       Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
